             OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR


                                                                                          September 10, 2012

Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Management

From:         Mic~ael P. Co lombo       ~         J //£)~ ~
              Regional Manager         ~ V£-( 1 · ~ ~
Subject:      Verification Review of Recommendations of our March 2006 Audit Report,
              " Hawaii Volcanoes National Park: Improved Operations Should Enhance
              Stewardship and Visitor Experience" (Report No. P-IN-NPS-0074-2004)
              Report No. WR-VS-NPS-0011-2012

        The U.S. Department of the Interior (Department) Office oflnspector General (OIG) has
completed a verification review of the twelve recommendations presented in the subject audit
report. The objective of the verification review was to determine whether Hawaii Volcanoes
National Park (Park) implemented the recommendations as reported to the Office of Financial
Management (PFM), Office of Policy, Management and Budget. PFM reported to OIG when the
Park had addressed each of the twelve recommendations in the subj ect report and provided
supporting documentation. Based on our verification, we consider Recommendations 3, 4, 5, 7,
8, 9, 10, 11 , and 12 resolved and implemented and Recommendations 1, 2, and 6 resolved but
not implemented.

Background

        Our March 2006 audit report, "Hawaii Volcanoes National Park: Improved Operations
Should Enhance Stewardship and Visitor Experience," contained twelve recommendations
relating to the Park's management of administrative operations.

         In a memorandum dated March 1, 2006, the Regional Director, Pacific West Region
concurred with the overall findings. The Regional Director, Pacific West Region also provided a
list of corrective actions and target implementation dates associated with each recommendation.
Based on this response, we considered Recommendations 4 and 5 resolved and implemented . On
May 15,2006, we referred 10 ofthe report's 12 recommendations to PFM for tracking and
implementation.

      Subsequently, PFM reported that all recommendations had been implemented
(memoranda dated September 20, 2007; September 28, 2007; May 2, 2008; September 29, 2008;
September 30, 2009; and April 12, 2010). The audit report was closed on April 12,20 10.



                        Office of Audits, Inspections, and Evaluations I Sacramento, CA
Scope and Methodology

       The scope of this review was limited to determining whether the Park took action to
implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation that Park officials provided and discussed actions taken relating to each of the
twelve recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether the Park
corrected the underlying deficiencies we initially identified. As a result, we did not conduct this
review in accordance with the Generally Accepted Government Auditing Standards issued by the
Comptroller General of the United States or the Quality Standards for Inspections of the Council
of the Inspectors General on Integrity and Efficiency.

Results of Review

        Our current review found that the Park implemented Recommendations 3, 4, 5, 7, 8, 9,
10, 11, and 12 but did not implement Recommendations 1, 2, and 6. We are requesting PFM to
reinstate Recommendations 1, 2, and 6 and take the appropriate follow-up action.

       Recommendation 1: Update and revise the Park's GMP [General Management
       Plan] and related plans to verify the appropriateness ofthe Park's strategic course
       and associated goals, thereby ensuring suitable efforts are made toward long-term
       resource preservation and visitor satisfaction.

       Action Taken: The Park is currently in the process of updating the GMP, which now
       includes a wilderness study. A record of decision is expected in 2014.

       Because the GMP is still in draft, we conclude that this recommendation is resolved but
       not implemented.

       Recommendation 2: Develop an integrated CSP [Commercial Service Plan] that
       identifies the appropriate commercial services needed and the best practices to
       manage these services.

       Action Taken: The Park is developing a CSP as a part of its efforts to develop the GMP.

       Because the GMP is still in draft, we conclude that this recommendation is resolved but
       not implemented.

       Recommendation 3: Establish and implement procedures to ensure commercial
       air and bus operators accurately report and pay required fees on time.

       Action Taken: PFM's memorandum dated September 29, 2008, provided
       documentation of the Park's efforts to implement this recommendation. The Park
       created a Web page on their Web site titled "Doing Business with the Park." The


                                                 2
Web page outlines the Park's authority to issue commercial use authorizations,
information on insurance and reporting requirements, and entrance and permit
fees. We also learned that commercial use authorization holders are required to
attend an 8-hour certification course, which covers interpretation, compliance, and
safety.

Based on this information, we consider this recommendation resolved and
implemented.

Recommendation 4: Enforce concession contract terms that require the
concessioner to pay its fair share of water service operating costs and to provide
quality service.

Action Taken: In our May 15, 2006 referral memorandum to PFM, we stated that
based on the National Park Service' s (NPS) response to the final report, dated
March 1, 2006, we considered this recommendation resolved and implemented.
During the verification review, we learned that currently there is no concession
contract, but the Park is in the process of executing a new one.

Based on this information, we considered this recommendation resolved and
implemented.

Recommendation 5: Proactively plan for the new concession contract, including
determining the value of the concessioner's capital improvements and resolving
possessory interest issues.

Action Taken: In our May 15, 2006 referral memorandum to PFM, we stated that
based on NPS 's response to the final report, dated March 1, 2006, we considered
this recommendation resolved and implemented. During the verification review,
we learned that currently there is no concession contract, but the Park is in the
process of executing a new one.

Based on this information, we considered this recommendation resolved and
implemented.

Recommendation 6: Develop an integrated CIP [Comprehensive Interpretive
Plan] that identifies the interpretive service operations that are or should be
available from the Park, and how interpretive service needs will be met through a
combination ofNPS staff, concessioners, and Park cooperators.

Action Taken: The Park has not developed an integrated CIP. The Park has had a
Project Management Information System (PMIS) statement to request funding for
a CIP for approximately 6 years, but it has not received any funding.

Because the CIP is planned but not funded , we consider this recommendation
resolved but not implemented.


                                         3
Recommendation 7: Develop and implement a plan to complete comprehensive
condition assessments. The plan should address strategy, priorities, and target
dates for completing all assessments.

Action Taken: To manage its facility assets more effectively, the Park developed
a I 0-year Park Asset Management Plan. This plan describes its asset inventory,
summarizes its current budget, communicates funding requirements, and provides
strategies to focus funding on assets essential to preserving park resources. In
addition, the plan also addresses the strategy, priorities, and target dates for
completing all assessments.

Based on this information, we consider this recommendation resolved and
implemented.

Recommendation 8: Determine the feasibi lity of contracting additional
maintenance projects to the private sector to better use Park resources.

Action Taken: The Park created a position paper that outlines their methodology
for evaluating the method of work for a project. The position paper states that the
Park has an ongoing routine of evaluating each PMIS project submission twice for
method of work. The criteria used is based on complexity and scope of work,
historical sensitivity of work, estimated value of work, and the abilities and skills
of the day labor work force. All large projects that are more than $500,000 are
scoped for contract work and smaller projects are evaluated on a case-by-case
basis. In addition, in fiscal year 2009, the Park hired a new Chief of Maintenance
and a new Park Engineer who both have experience in managing maintenance
programs using contracts for construction and major repairs. For fiscal year 2009,
30 percent ofthe total maintenance projects and more than 55 percent of the high
cost maintenance and construction projects were contracted out.

Based on this information, we conclude that this recommendation is resolved and
implemented.

Recommendation 9: Fully use the PMIS to oversee maintenance projects.

Action Taken: In NPS ' s response to the final report, dated March 1, 2006, the
Park stated that it conducted PMIS training in August 2005. During our
verification review, we confirmed that PMIS training is still being provided
through DOl Learn.

Based on this information, we consider this recommendation resolved and
implemented.




                                         4
       Recommendation 10: Reduce the number of purchase cardholders and lower
       charge limits based on a combination of historical use information and cardholder
       position responsibilities.

       Action Taken: In our March 2006 audit report, we found that the Park had issued
       purchase cards to 45 employees. During our verification review, we found the
       Park had reduced their purchase cardholders to 23. In addition, the Regional
       Director, Pacific West Region issued a memorandum informing the Region it
       must reduce the number of charge cardholders with purchase authority by
       50 percent. We learned that fo r the Pacific West Region to meet the goal of
       50 percent reduction, they would remove purchase authority from cardholders
       who made 50 or fewer purchases in the past 3 years.

       Based on this information, we conclude that this recommendation is resolved and
       implemented.

       Recommendation 11: Accept credit cards as payment for entrance fees.

       Action Taken: The Park now accepts credit cards as payment fo r entrance fees.

       Based on this information, we consider thi s recommendation resolved and
       implemented.

       Recommendation 12: Enforce the NPS requirement for reporting museum
       property losses.

       Action Taken: The Park has enforced the NPS requirement for reporting museum
       property losses by completing a statement of circumstances for missing museum property
       under review for deaccession on May 17, 2007.

       Based on this information, we consider this recommendation resolved and implemented.

Conclusion

        We informed Park officials of the results of this review on September 5, 2012. Park
officials agreed with the results of our review. If you have any questions about this report, please
contact me at (916) 978-5653.

cc:    Cindy Orlando, Superintendent, Hawaii Volcanoes National Park, National Park Service
       Sharon Blake, Liaison Officer, Office of Financial Management
       Vera Washington, Liaison Officer, National Park Service




                                                 5
